Case: 19-30494

Document: 00515445742

Page: 1

Date Filed: 06/09/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-30494

19-30494

In the Matter of: DONALD H. GRODSKY
Debtor
JOHN T. LAMARTINA-HOWELL; ELISE LAMARTINA,
Appellants
v.

DAVID ADLER; GORDON, ARATA, MONTGOMERY, BARNETT,
MCCOLLAM, DUPLANTIS & EAGAN, L.L.C., formerly known as Gordon,
Arata, McCollam, Duplantis and Eagan, L.L.C.; FERNAND L. LAUDUMIEY,
IV; DAVID J. MESSINA; LAKE VILLAS NUMBER 2 HOMEOWNERS
ASSOCIATION, INCORPORATED; SEALE & ROSS, A PROFESSIONAL
LAW CORPORATION; GLEN GALBRAITH; LESLIE BOLNER,
Appellees

Consolidated with 19-30496

In the Matter of: DONALD H. GRODSKY
Debtor
JOHN L. HOWELL; ELISE LAMARTINA,

Case: 19-30494

Document: 00515445742

Page: 2

Date Filed: 06/09/2020

Appellants
v.

LAKE VILLAS NUMBER 2 HOMEOWNERS ASSOCIATION,
INCORPORATED; DAVID V. ADLER; GORDON, ARATA, MCCOLLAM,
DUPLANTIS AND EAGAN, L.L.C.; CHAFFE MCCALL, L.L.P.; FERNAND
L. LAUDUMIEY, IV; DAVID J. MESSINA; SEALE & ROSS, A
PROFESSIONAL LAW CORPORATION; GLEN GALBRAITH; LESLIE
BOLNER,
Appellees

Appeals from the United States District Court
for the Eastern District of Louisiana

ON PETITIONS FOR REHEARING AND REHEARING EN BANC
(Opinion

, 5 Cir.,

F.3d

)

Before DAVIS, JONES, and ENGELHARDT, Circuit Judges.
PER CURIAM:

(if)

The Petitions for Rehearing are DENIED and no member of this panel
nor judge in regular active service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R. APP. P. and 5th ClR. R.
35) the Petitions for Rehearing En Banc are also DENIED.

( )

The Petitions for Rehearing are DENIED and the court having been
polled at the request of one of the members of the court and a majority
of the judges who are in regular active service and not disqualified not
having voted in favor, (FED. R. APP. P. and 5th ClR. R. 35) the Petitions
for Rehearing En Banc are also DENIED.

( )

A member of the court in active service having requested a poll on the

Case: 19-30494

Document: 00515445742

Page: 3

Date Filed: 06/09/2020

reconsiderations of this cause en banc, and a majority of the judges in
active service and not disqualified not having voted in favor, Rehearings
En Banc are DENIED.

ent:
U^FFEIJBTPATES CIRCUIT JUDGE

la

Appendix A
In the Matter of: DONALD H. GRODSKY Debtor
JOHN T. LAMARTINA-HOWELL; ELISE LAMARTINA, Appellants
v.
DAVID ADLER; GORDON, ARATA, MONTGOMERY, BARNETT,
MCCOLLAM, DUPLANTIS & EAGAN, L.L.C., formerly known as Gordon,
Arata, McCollam, Duplantis and Eagan, L.L.C.; FERNAND L. LAUDUMIEY,
IV; DAVID J. MESSINA; LAKE VILLAS NUMBER 2 HOMEOWNERS ASSOCIATION, INCORPORATED;
SEALE & ROSS, A PROFESSIONAL LAW CORPORATION; GLEN GALBRAITH; LESLIE BOLNER,
Appellees
In the Matter of: DONALD H. GRODSKY Debtor
JOHN L. HOWELL; ELISE LAMARTINA, Appellants
v.
LAKE VILLAS NUMBER 2 HOMEOWNERS ASSOCIATION,
INCORPORATED; DAVID V. ADLER; GORDON, ARATA, MCCOLLAM,
DUPLANTIS AND EAGAN, L.L.C.; CHAFFE MCCALL, L.L.P.;
FERNAND L. LAUDUMIEY, IV; DAVID J. MESSINA; SEALE & ROSS,
A PROFESSIONAL LAW CORPORATION; GLEN GALBRAITH; LESLIE BOLNER, Appellees
No. 19-30494
C/w 19-30496
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
April 1, 2020
Appeals from the United States District Court for the Eastern District of Louisiana
USDC No. 2:19-CV-10068
USDC No. 2:19-CV-10334
Before DAVIS, JONES, and ENGELHARDT, Circuit Judges.
PER CURIAM:*
Appellants John LaMartina-Howell ("John") and Elise LaMartina ("Elise") appeal the district court's
affirmance of two bankruptcy court orders dismissing all claims related to the ownership of a promissory note
and enjoining all future claims regarding the same. We affirm.
I.
This consolidated appeal relates to a dispute that has been litigated in state, bankruptcy, and district courts
for the last six years. This appeal should, at long last, be the end of the road. In 2014, Defendant-Appellee, Lake
Villas II Homeowners Association ("Lake Villas"), obtained a judgment in Louisiana state court for $37,147.68
against Elise for her failure to pay her homeowners

2a
Page 2
association fees. When Lake Villas attempted to foreclose on her condo to satisfy the judgment, a second, higherpriority mortgage was discovered. The ownership of that note sparked great controversy. Donald Grodsky
("Grodsky"), whose bankruptcy trustee is a Defendant-Appellee here, claimed ownership, as did Elise's son
John.
During Lake Villas' suit against Elise, the Louisiana court determined, after hearing extensive and shifting
testimony from the LaMartina family and Grodsky, that the note was the property of Grodsky. 1 Grodsky's closed
2009 Chapter 7 bankruptcy case was then re-opened "to administer and distribute the proceeds of the Mortgage
Note" because he had failed to disclose the mortgage note during those initial bankruptcy proceedings. To that
end, in May 2015, the bankruptcy court ordered John to turn over the mortgage note. This order was not
appealed.
John and Elise did, however, file a separate adversary proceeding in bankruptcy court on January 29, 2018.
Their complaint alleged that during the proceedings before the Louisiana court, Appellees committed bribery,
witness tampering, fraud, and extortion, among many other crimes,2 as well as defamation, breach of fiduciary
duty, and abuse of process. Also named as a
Page 3
defendant in this suit was the Office of the U.S. Trustee, who Appellants contend failed to respond to complaints
made about the Chapter 7 Trustee and his attorneys. As relief, Appellants sought "the return of [the] Promissory
Note." In addition to dismissing all of John and Elise's claims, the bankruptcy court granted Appellees' requested
Barton injunction, prohibiting all future claims related to the ownership of the note. The district court affirmed,
and John and Elise filed their notice of appeal with this court.
Despite the injunction, John and Elise filed anew in the Eastern District of Louisiana. The complaint was
styled as a petition for nullity, damages, and permanent injunctive relief. Here, Appellants complained that
"defendant Lake Villas... violated the automatic stay in pursuing the state court litigation, and therefore the state
court judgment awarding ownership of the note to the debtor is void ab initio." The district court transferred this
case to the bankruptcy court, which dismissed their claim. The district court affirmed, and John and Elise
appealed this decision, as well. The two appeals were consolidated before this court.
II.
"When a court of appeals reviews the decision of a district court, sitting as an appellate court, it applies the
same standards of review to the bankruptcy court's finding of fact and conclusions of law as applied by the
district court." Jacobsen v. Moser (In re Jacobsen), 609 F.3d 647, 652 (5th Cir. 2010) (citation and internal
quotation marks omitted). Thus, in accordance with the district court, "conclusions of law are reviewed de novo,
findings of fact are reviewed for clear error, and mixed questions of fact and law are reviewed de novo." In re
Nat'l Gypsum Co., 208 F.3d 498, 504 (5th Cir. 2000). We review the issuance of injunctions for an abuse of
discretion. See Doran v. Salem Inn, Inc., 422 U.S. 922, 931-32 (1975).

3a
Page 4
III.
On appeal, Appellants present — with few citations to the record — a myriad of arguments, but ultimately
to no avail. First, we agree with the bankruptcy court that its "order directing [John] to turn the note over to the
bankruptcy trustee... became a final order when the motion to reconsider was denied and no appeal was taken."
Thus, Appellants' attempt to undo the turnover order in these separate proceedings is barred by principles of res
judicata. Maggio v. Zeitz, 333 U.S. 56, 68 (1948) ("the turnover proceeding is a separate one and, when
completed and terminated in a final order, it becomes res judicata and not subject to collateral attack").
Second, as to the remaining allegations against Grodksy's bankruptcy trustee and his attorneys, we also
agree that Appellees are immune from liability because they "acted within the scope of their duties during the
events described in the complaint, and
that the plaintiffs' allegations are not based in fact." C.f., Matter of Ondova Ltd. Co., 914 F.3d 990, 993 (5th Cir.
2019) (per curiam). And, in light of the extensive litigation, the bankruptcy court was well within its discretion to
maintain jurisdiction over the adversary proceedings. See Matter of Quemer, 7 F.3d 1199, 1202 (5th Cir. 1993);
Matter of Carroll, 850 F.3d 811, 816 (5th Cir. 2017) (per curiam). Finally, although Appellants scarcely defend
their second appeal in the briefs, we find that the bankruptcy court was correct in holding that the suit violated its
permanent injunction barring John and Elise from relitigating the promissory note and that it lacked any
underlying merit.
IV.
Because we find no reversible error in the bankruptcy court's orders, the district courts'judgments are
AFFIRMED in all respects.
Footnotes:
*. Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not be published and is
not precedent except under the limited circumstances set forth in 5TH CIR. R. 47.5.4.
1. The Louisiana First Circuit court of appeal dismissed John's appeal, and the Louisiana Supreme Court
denied further review. Lake Villas No. II Homeowners' Ass'n, Inc. v. LaMartina, 189 So.3d 1070 (La. 2016).
Later writ applications were also denied. See, e.g., Lake Villas No. II Homeowners Ass'n, Inc. v. Lamartina,
2018-0699 (La. App. 1 Cir. 9/17/18).
2. In August 2016, John filed a RICO complaint in the district court against the trustee, Lake Villas, and
their attorneys. Howell v. Adler, No. 16-14141, 2017 WL 1064974 (E.D. La. Mar. 21, 2017). The court dismissed
these claims, holding that the Barton doctrine precluded Elise and John from filing claims based on defendants'
"acts performed 'within the context of [their] role of recovering assets for the estate'" without receiving
permission from the bankruptcy court. Id. at *2-3 (internal citations omitted). The court also found that John
failed to plead adequate facts to state a RICO claim. Id. at*3-6. This judgment was not appealed, and to the
extent Appellants attempt to revive their RICO complaint, such a claim is barred by res judicata. Southmark
Corp. v. Coopers & Lybrand (In re Southmark Corp.), 163 F.3d 925, 934 (5th Cir. 1999) (Res judicata "bars the
litigation of claims that either have been litigated or should have been raised in an earlier suit.").
Lamartina-Howell v. Adler (In re Grodsky) (5th Cir. 2020)

4a

Appendix B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
IN RE: HOWELL
CIVIL ACTION No. 19-10068
SECTION I
ORDER & REASONS
Before the Court is an appeal1 filed by John LaMartina Howell and Elise LaMartina (collectively, the
“appellants”) from a judgment issued by the United States Bankruptcy Court. The bankruptcy court dismissed
the appellants’ complaint and permanently enjoined them from litigating certain issues in any court except the
bankruptcy court.2
This Court’s jurisdiction to review the bankruptcy court’s judgment derives from 28 U.S.C. § 158(a)(1).
“[Conclusions of law are reviewed de novo, findings of fact are reviewed for clear error, and mixed questions of
fact and law are reviewed de novo.” In re Nat’l Gypsum Co., 208 F.3d 498, 504 (5th Cir. 2000). Having
reviewed the record in this matter, the bankruptcy court’s amended judgment, the parties’ briefing, and the
applicable law, the Court concludes that the bankruptcy court’s factual findings are “plausible in light of the
record read as a whole,” In re Ramba, Inc., 416 F.3d 394, 402 (5th Cir. 2005), and that its application of the law
to the facts is correct: pursuant to both the Rooker-Feldman and Barton doctrines, the appellants’ complaint was
rightfully dismissed and the permanent injunction is warranted.
1 R. Doc. No. 1.
2See R. Doc. No. 3-1, at 246. On June 13, 2018, after a hearing on the two motions to dismiss filed by the de­
fendant-appellees, the bankruptcy court issued its judgment. On appeal, this Court remanded the matter to the
bankruptcy court to allow the bankruptcy court to issue an amended order and reasons explaining its dismissal of
the plaintiff-appellants’ complaint. The bankruptcy court issued its amended judgment on April 11, 2019, and
the appellants timely appealed.
Accordingly,
IT IS ORDERED that the bankruptcy court’s opinion is ADOPTED as this Court’s own opinion, and its decision
dismissing the complaint and issuing the permanent injunction is AFFIRMED.
New Orleans, Louisiana, May 31, 2019.
LANCE M. AFRICK
UNITED STATES DISTRICT JUDGE

5a

Appendix C
UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF LOUISIANA
IN RE: DONALD H. GRODSKY CASE NO. 09-13383 Debtor
SECTION “B”
CHAPTER 7 ADVERSARY NO. 18-01006

JOHN LAMARTINA HOWELL and ELISE LAMARTINA
Plaintiffs
VERSUS
DAVID V. ADLER, TRUSTEE, GORDON, ARATA, MCCOLLAM, DUPLANTIS & EAGAN, LLC,
FERNAND LAUDUMIEY, IV, ESQ., DAVID J. MESSINA, ESQ., LAKE VILLAS NO. 2 HOMEOWNERS
ASSOCIATION, SEALE & ROSS, APLC, GLEN GALBRAITH, ESQ., LESLIE BOLNER, ESQ.,
DONALD GRODSKY, and OFFICE OF THE US TRUSTEE
Defendants

JUDGMENT AND PERMANENT INJUNCTION
On March 22, 2018, a Motion to Dismiss (“Adler Motion”)[P-3 7] was filed in the above-captioned adversary
proceeding (“Adversary Proceeding”) by (i) David V. Adler (“Trustee”); and (ii) Gordon, Arata, McCollam, Duplantis & Eagan, LLC (now known as Gordon, Arata, Montgomery, Barnett, McCollam, Duplantis & Eagan,
LLC) (“GAMB”), Fernand L. Laudumiey IV, and David J. Messina (collectively “Trustee’s General Counsel”).
On March 22, 2018, a Motion to Dismiss (“Seale Motion”) [P-40] was filed in this Adversary Proceeding by (i)
Lake Villas No. 2 Homeowners Association, Inc. (“LV2”), and (ii) Seale & Ross, A Professional Law Corpora­
tion (“Seale”), Leslie Bolner, and Glen Galbraith, (collectively “Trustee’s Special Counsel”). Hereinafter, the
Adler Motion and the Seale Motion will sometimes be collectively referred to as the “Motions.” The Trustee,
Trustee’s General Counsel, Trustee’s Special Counsel, and LV2 are hereinafter collectively referred to as the
“Defendants.”
On April 11, 2018, Elise LaMartina and John LaMartina-Howell filed (i) an Opposition to Defendants’ Motion
to Dismiss [P-53] opposing the Adler Motion and (ii) an Opposition to Defendants’ Motion to Dismiss [P-54]
opposing the Seale Motion (collectively “Oppositions”).
A hearing on the Motions and the Oppositions was held on April 18, 2018 (the “Hearing”). Appearing at the
Hearing were: Fernand L. Laudumiey, IV and David J. Messina, on behalf of the Trustee, GAMB, Fernand L.
Laudumiey, IV, and David J. Messina; Lesli S. Bolner and Glen R. Galbraith, on behalf of Seale, LV2, Lesli S.
Bolner, and Glen R. Galbraith; David V. Adler, Trustee; Glenn Schreiber, on behalf of the United States Trustee;
Elise LaMartina, pro se; and John LaMartina-Howell, pro se.
After considering the pleadings, the evidence, the arguments of the parties, and the record in this case, and in
light of all of the prior repetitive litigation, and finding that proper notice was given, and the Court being con­
vinced that the Defendants are entitled to the relief prayed for in the Motions;

6a
IT IS HEREBY ORDERED that the Motions are GRANTED, and that this Adversary Proceeding is hereby dis­
missed with prejudice at the plaintiffs’ costs.
IT IS HEREBY FURTHER ORDERED that Elise LaMartina, John LaMartina-Howell, and Pooter T, LLC, their
officers, managers, agents, servants, employees, representatives and attorneys, and any person or entity owned
by, controlled by or in privity with any of the above, are hereby permanently enjoined and restrained from com­
mencing or continuing any action or proceeding in any court, except this Court: (i)against the Trustee, the Trus­
tee’s General Counsel, or the Trustee’s Special Counsel, on account of, related to or otherwise arising out of
their service and actions directly or indirectly in connection with or related to this bankruptcy case as Trustee
and/or as counsel to the Trustee, (ii)to assert dominion or control over property of the bankruptcy estate (includ­
ing, without limitation, the Mortgage Note (“Note”) secured by Condominium Unit No. 5 at 665 N. Beau Chene
Dr.), and/or (iii)to affect property of the bankruptcy estate or the administration of this bankruptcy estate.
IT IS FURTHER ORDERED that Elise LaMartina, John LaMartina-Howell, and Pooter T, LLC, their officers,
managers, agents, servants, employees, representatives and attorneys, and any person or entity owned by, con­
trolled by or in privity with any of the above, are hereby permanently enjoined and restrained from commencing
or continuing in this Court or in any other court, any claim or cause of action raised in this Adversary Proceeding
or arising out of the same nucleus of operative facts as set forth in this Adversary Proceeding, including without
limitation, any claim or cause of action relating in any way to (i) the ownership of the Note; (ii) the nucleus of
operative facts surrounding the determination of ownership of the Note, litigation concerning the Note and any­
thing arising out of that Note, and any allegations as to alleged misconduct by any of the Defendants in connec­
tion with any prior litigation relating to the ownership of the Note; and (iii) the nucleus of operative facts in any
way relating to this Court’s issuance of the Turnover Order entered on May 1, 2015 [P-124] ordering the turno­
ver of the Note to the Trustee as property of the estate.
IT IS HEREBY FURTHER ORDERED that this Court retains jurisdiction to enforce and implement the terms
and provisions of this Order, to compel compliance with this Order, and to impose any sanctions as may be nec­
essary to ensure compliance with this Order.IT IS FURTHER ORDERED that counsel shall serve this order on
the required parties who will not receive notice through the ECF system pursuant to the FRBP and the LBRs and
file a certificate of service to that effect within three (3) days. New Orleans, Louisiana, June 13, 2018.
Jerry A. Brown U.S. Bankruptcy Judge

Additional material
from this filing is
available in the
Clerk's Office.

